<html>
<title> - PERMITTING PROCESSES AT THE DEPARTMENT OF THE INTERIOR AND THE FEDERAL ENERGY REGULATORY COMMISSION FOR ENERGY AND RESOURCE INFRASTRUCTURE PROJECTS AND OPPORTUNITIES TO IMPROVE EFFICIENCY, TRANSPARENCY, AND ACCOUNTABILITY OF FEDERAL DECISIONS FOR SUCH PROJECTS</title>
<body><pre>[Senate Hearing 115-494]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 115-494

PERMITTING PROCESSES AT THE DEPARTMENT OF THE INTERIOR AND THE FEDERAL 
  ENERGY REGULATORY COMMISSION FOR ENERGY AND RESOURCE INFRASTRUCTURE 
                                PROJECTS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   TO

EXAMINE THE PERMITTING PROCESSES AT THE DEPARTMENT OF THE INTERIOR AND 
   THE FEDERAL ENERGY REGULATORY COMMISSION FOR ENERGY AND RESOURCE 
 INFRASTRUCTURE PROJECTS AND OPPORTUNITIES TO IMPROVE THE EFFICIENCY, 
TRANSPARENCY, AND ACCOUNTABILITY OF FEDERAL DECISIONS FOR SUCH PROJECTS

                               __________

                           DECEMBER 12, 2017

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Printed for the use of the
               Committee on Energy and Natural Resources

Available via the World Wide Web: http://www.govinfo.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-096 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8a8b798bbadabacb0bdb4a8f6bbb7b5f6">[email&#160;protected]</a>                   
   


                      COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Lane Dickson, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Spencer Gray, Democratic Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

Cason, James, Associate Deputy Secretary, U.S. Department of the 
  Interior.......................................................     5
Pfleeger, Janet, Acting Executive Director, Federal Permitting 
  Improvement Steering Council...................................     9
Turpin, Terry L., Director, Office of Energy Projects, Federal 
  Energy Regulatory Commission...................................    18
Brown, Chad, Water Quality Unit Supervisor, Washington State 
  Department of Ecology..........................................    24
Perruso, Roxane, Vice President and Associate General Counsel, 
  The Anschutz Corporation.......................................    29
Russell, Luke, Vice President External Affairs, Hecla Mining 
  Company........................................................    44

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Brown, Chad:
    Opening Statement............................................    24
    Written Testimony............................................    26
Cantwell, Hon. Maria:
    Opening Statement............................................     3
Cason, James:
    Opening Statement............................................     5
    Written Testimony............................................     6
    Responses to Questions for the Record........................   107
Duckworth, Hon. Tammy:
    Virginia Law Review Online essay entitled ``Presidents Lack 
      the Authority to Abolish or Diminish National Monuments'' 
      dated June 2017............................................    77
    The Washington Post article entitled ``Uranium firm urged 
      Trump officials to shrink Bears Ears National Monument'' 
      dated December 8, 2017.....................................    95
Greczmiel, Horst G.:
    Statement for the Record.....................................   147
Inhofe, Hon. James M.:
    Statement for the Record.....................................    73
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
National Hydropower Association:
    Letter for the Record........................................   151
Perruso, Roxane:
    Opening Statement............................................    29
    Written Testimony............................................    31
    Responses to Questions for the Record........................   145
Pfleeger, Janet:
    Opening Statement............................................     9
    Written Testimony............................................    11
    Responses to Questions for the Record........................   121
Russell, Luke:
    Opening Statement............................................    44
    Written Testimony............................................    46
Turpin, Terry L.:
    Opening Statement............................................    18
    Written Testimony............................................    20
    Responses to Questions for the Record........................   137

 
PERMITTING PROCESSES AT THE DEPARTMENT OF THE INTERIOR AND THE FEDERAL 
  ENERGY REGULATORY COMMISSION FOR ENERGY AND RESOURCE INFRASTRUCTURE 
  PROJECTS AND OPPORTUNITIES TO IMPROVE EFFICIENCY, TRANSPARENCY, AND 
         ACCOUNTABILITY OF FEDERAL DECISIONS FOR SUCH PROJECTS

                              ----------                              


                       TUESDAY, DECEMBER 12, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    We were hoping to be able to move out two of our nominees 
that are currently pending before the Committee. We obviously 
have to have the requisite number of members here, so until 
such time as we have a quorum, we will move to our scheduled 
Full Committee hearing on infrastructure permitting. If we are 
able to get the quorum of 12, we will take up the business 
meeting at that point in time. I would anticipate that it would 
be relatively quick.
    We have names on the table in front of us. I invite you 
each to come to the table as I provide an opening statement. 
Mr. Cason, Ms. Pfleeger, Mr. Turpin, Mr. Brown, Ms. Perruso and 
Mr. Russell, if you just want to join us there.
    We are here today to discuss infrastructure permitting 
challenges, ongoing efforts to streamline federal approvals, 
and opportunities to improve the responsiveness, the 
transparency and the predictability of our system of permit 
review. I think we all recognize the need to make investments 
that will both upgrade and modernize our infrastructure.
    We have had hearings in this Committee, many hearings, to 
look specifically at the needs in the energy and the resource 
sectors. But as we continue to discuss energy infrastructure, I 
think it is important that we take steps to rationalize how 
projects are reviewed and approved.
    The existing regulatory regime impacts the cost 
effectiveness of our federal infrastructure spending. Beyond 
that, the length and uncertainty associated with the permitting 
process limits the willingness of the private sector to 
finance, build and operate energy infrastructure. This drives 
dollars overseas, rather than into jobs and growth and 
prosperity for our nation.
    So whether we are talking about a pipeline, a mine, a power 
plant, a public-private partnership, a water system or a 
company building a factory, we know that the deployment of 
capital is too often delayed, sometimes by years and sometimes 
deliberately.
    When investment is impeded, how can we expect capital to be 
deployed here, where an environmental impact statement alone 
averages almost five years and final approval can take a decade 
or more? We look to other countries, for example, Canada and 
Germany, they are moving similar projects in just a couple 
years.
    I look forward to hearing from federal witnesses who are 
working to make our system work better and hearing about the 
permitting reforms of FAST-41, which we enacted roughly two 
years ago, and how those are being implemented.
    I am also pleased to have three non-federal witnesses who 
have experience, they might say, perhaps, too long of an 
experience, navigating the federal permitting gauntlet for 
electric transmission, hydropower and mining projects.
    New and upgraded transmission lines are crucial to a 
reliable and secure electric grid and to bring new sources of 
energy to our markets. Despite that, the number of federal, 
state and local agencies involved in a single project makes 
permitting notoriously cumbersome.
    We have also talked at length in this Committee about the 
challenges of licensing and relicensing hydro facilities. When 
I tell people about the time that is involved in a relicense, 
it is almost breathtaking. We need to fix the FERC process 
before the number of projects up for relicensing increases 
dramatically over the next decade.
    Finally, when it comes to permitting delays for new mines, 
our nation is among the worst in the world and it is leading us 
to be dependent on foreign nations for the fundamental building 
blocks of a wide range of energy, defense, health care and 
other modern technologies.
    The Energy and Natural Resources Act that Senator Cantwell 
and I reintroduced this year has provisions that take important 
steps to streamline project reviews in all three of these 
industries. This is an important bill that will help us make 
needed progress. But we also recognize that the challenges we 
will hear about today represent a subset of the infrastructure 
sectors that are also struggling to permit projects. So whether 
it is energy production, pipelines, pumped storage, water 
supply, LNG or something else, our system needs to be improved 
across the board.
    We absolutely have the ability to establish a permitting 
process that works, one that protects the environment and 
promotes state and local input, while not miring projects in 
red tape and driving away private investment. To achieve that 
goal, we have to set aside the misguided idea that accelerating 
or coordinating approvals somehow weakens those protections or 
that simply spending more money will fix all the problems. It 
doesn't, we know that, and it will not work. Both common sense 
and experience tell us that we can maintain our high standards 
while speeding reviews and approvals.
    I view this hearing as the next step in our effort to 
improve our nation's infrastructure. I look forward to the 
insights and ideas from our witnesses to do just that.
    Thank you all for being here with us this morning.
    Senator Cantwell, I welcome your comments this morning.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and I certainly 
welcome this infrastructure permitting oversight hearing, but I 
do think it's interesting, the Wall Street Journal reported 
just this last week that President Trump will roll out an 
infrastructure plan in January. It will propose $200 billion of 
spending offset by cutting other federal programs.
    Before we start the hearing today, I just want to remind my 
colleagues that the tax proposal before us is trying to be 
jammed through when we could be having this discussion right 
now about infrastructure investment.
    We obviously started the year with a lot of conversation 
between our colleagues and our leaders, Senator Schumer and 
Speaker Ryan, about doing an infrastructure bill that got set 
aside. So I want to make sure that people understand we have 
been more than willing to talk about our crumbling 
infrastructure for a long time.
    This morning we are going to hear about permitting reform, 
which is a good discussion, but we need an infrastructure bill 
that is about funding.
    I'm proud over the last two years that the Chair, Senator 
Murkowski, and I have tried to address some of the permitting 
issues on hydro and critical minerals. And obviously we've 
passed legislation out of the Senate that has not made it 
through a final process because of our House colleagues' lack 
of interest in making sure that we take up improving hydro and 
other issues. Part of the answer, I believe, is making sure we 
adequately fund the permitting agencies.
    I'm pleased that Chad Brown is here from the Washington 
Department of Ecology. They have been credited with an 
innovative solution for hydro resources. Dam owners pool money 
to provide dedicated funds to complete water quality reviews on 
time. I believe this is a good model, and I look forward to 
hearing more about it this morning. I think it could work on 
the federal level as well. We should provide dedicated license 
fees directly to resource agencies.
    I'm pleased that we have a witness who can speak to the 
experience with the Western Area Power Administration's 
transmission program. I hope my colleagues will agree that 
existing federal programs that support investing in 
transmission deserve our support.
    And when it comes to the Department of the Interior, I 
definitely want to make sure that we have some questions here. 
I think Secretary Zinke has been very abrupt in his actions at 
Department of the Interior. It seems like it's just about 
whether you want permission to drill, and if so, then you get 
the keys to whatever public lands.
    In less than a year, the Interior Department has left $750 
million in taxpayer royalties on the table. The Secretary has 
abandoned his obligation to stop natural gas waste. We in the 
Senate said very strongly that we wanted to continue to see the 
management of methane flaring. He has ditched sage grouse plans 
negotiated with the states, he has ditched master leasing 
plans, he has skipped public comment periods, illegally 
suspended regulations and turned NEPA on its head. President 
Trump has followed his advice to strip protection from two 
million acres in Utah. This is the largest rollback of public 
lands protection in history, opening pristine desert to 
drilling and mining.
    The Washington Post confirmed over the weekend that Energy 
Fuels Resources petitioned Interior to open up Bears Ears to 
uranium mining. And Secretary Zinke has proposed even more 
rollbacks.
    So when it comes to hearing these issues this morning, I 
hope we will take into context the larger things that are 
happening as well.
    I know that we will hear a lot from our witnesses, and I 
remain committed to improving our process, but I also want to 
make sure that we are protecting those things that are in the 
taxpayers' interest.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Let's now turn to our panel.
    We are joined this morning by Mr. Jim Cason, who is the 
Associate Deputy Secretary at the Department of the Interior. 
We welcome you this morning.
    Ms. Janet Pfleeger is the Acting Executive Director for the 
Federal Permitting Improvement Steering Council. Thank you for 
joining us.
    Mr. Terry Turpin is the Director for the Office of Energy 
Projects at the Federal Energy Regulatory Commission (FERC).
    Mr. Chad Brown, as Senator Cantwell has noted, is the Water 
Quality Unit Supervisor at the Washington Department of 
Ecology. We thank you for traveling across the country.
    Ms. Roxane Perruso is the Vice President and Associate 
General Counsel for TransWest Express. Thank you for being 
here.
    And Mr. Luke Russell is with us from Hecla Mining Company 
where he is the Vice President for External Affairs.
    We welcome each of you to the Committee. We would ask that 
you provide your comments in, hopefully, about five minutes or 
so. Your full statements will be included as part of the 
record, and once you have completed your comments we will have 
an opportunity for questions.
    Again, if we need to interrupt because we need to do a 
quick business meeting, we certainly hope you understand.
    Mr. Cason, if you would like to begin.

  STATEMENT OF JAMES CASON, ASSOCIATE DEPUTY SECRETARY, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Cason. Thank you, Madam Chairman, and I, for one, will 
be very happy with the break for what you're planning to do.
    Chairman Murkowski, Ranking Member Cantwell, members of the 
Committee, my name is Jim Cason. I serve as the Associate 
Deputy Secretary of the Department of the Interior.
    Thank you for inviting me to testify today on the 
Department's efforts to improve the efficiency and 
accountability of federal permitting for infrastructure 
projects. I ask that my entire written record or my entire 
written statement be incorporated in the record.
    The Chairman. It will be included.
    Mr. Cason. Thank you.
    The Chairman. As will everyone else's.
    Mr. Cason. Thank you.
    The Department is acutely aware that the President has a 
vision for empowering the private sector, as well as state and 
local governments, through infrastructure enhancements and 
improvements. Interior believes that creating greater 
efficiencies in the overall federal permitting process is 
crucial to addressing infrastructure needs.
    Executive Order (E.O.) 13807 ignited an Administration-wide
assessment about how best to address inefficiencies in the 
current infrastructure project decisions that delay 
investments, decrease job creation or are costly to the 
American taxpayer.
    In turn, the Department signed Secretarial Order 3355, 
which includes: setting page and time limitations for most 
Environmental Impact Statements, setting target page and time 
limitations for the preparation of Environmental Assessments, 
reviewing the Department's current NEPA procedures and 
providing recommendations to streamline the process, and 
implementing E.O. 13807 to the fullest extent possible. We 
believe our efforts to accelerate and streamline NEPA 
compliance efforts will also help us achieve our responsible 
energy development goals.
    Executive Order 13783 directed agencies to immediately 
review and report on all agency actions that potentially burden 
the safe, efficient development of domestic energy resources.
    In turn, the Department released the ``Review of the 
Department of the Interior Actions that Potentially Burden 
Domestic Energy'' report on October 25, 2017. We believe the 
report is a useful tool to reduce impediments to processes 
including permitting to promote safe, efficient development of 
domestic energy resources.
    My written testimony further discusses Interior's efforts 
regarding offshore energy as well as implementation of Title 41 
of the Fixing America's Surface Transportation, or FAST, Act.
    Chairman Murkowski, I appreciate the opportunity to testify 
before the Committee and I look forward to answering questions.
    Thank you.
    [The prepared statement of Mr. Cason follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Cason.
    Ms. Pfleeger, welcome.

         STATEMENT OF JANET PFLEEGER, ACTING EXECUTIVE 
   DIRECTOR, FEDERAL PERMITTING IMPROVEMENT STEERING COUNCIL

    Ms. Pfleeger. Chairman Murkowski, Ranking Member Cantwell 
and members of the Committee, thank you for the opportunity to 
appear before you today.
    The Federal Permitting Improvement Steering Council, known 
as the Permitting Council, was created by Title 41 of the FAST 
Act, known as FAST-41. FAST-41 brings accountability and 
transparency to what has been for too long an uncertain and 
unpredictable process. FAST-41 upholds existing environmental 
laws and statutory responsibilities of the 16 Permitting 
Council agencies. Additionally, FAST-41 is a voluntary program 
in which project sponsors apply to become covered projects.
    As Acting Executive Director of the Permitting Council, my 
office and the Council are bringing about a new way of doing 
business to improve the efficiency and the effectiveness of the 
federal permitting process for complex infrastructure projects 
in our nation.
    The Permitting Council is comprised of top leadership, 
Deputy Secretary or equivalent, so they can ensure permit 
streamlining occurs throughout all levels of their 
organizations, including at the very important field level.
    In addition, the Permitting Council is working with the 
Administration to improve the permitting process through 
Executive Order 13807, establishing discipline and 
accountability in the environmental review and permitting 
process for infrastructure projects.
    The Office of the Executive Director, known as OED, 
oversees FAST-41 implementation and serves as a one-stop shop 
for project sponsors. OED is changing institutional behavior 
and culture, enhancing agency collaboration, resolving 
disputes, assuring transparency in the permitting process and 
ensuring agencies better coordinate and synchronize 
environmental reviews and authorizations.
    My office is focused on three areas that I would like to 
highlight for you: early and formulized cross-agency 
coordination, increased transparency through the Permitting 
Dashboard and project-specific coordination and dispute 
resolution.
    To my first point, FAST-41 requires the development of 
interagency coordinated project plans, CPPs, an essential tool 
for cross-agency planning and implementing best practices. The 
initial development and quarterly updates of CPPs formulize 
interagency collaboration. This allows difficult issues to be 
addressed early in the process to prevent confusion and delays 
later in the process. Moving forward, my office is working with 
agencies to ensure CPPs emphasize concurrent, rather than 
sequential, permitting actions.
    Earlier this month, the Permitting Council released its 
2018 recommended best practices for infrastructure permitting. 
My office will be ensuring agency implementation of these best 
practices to generate efficiencies in the permitting process 
and the Executive Director is required to report to Congress 
each April on agency progress.
    To my second point, the Permitting Dashboard brings an 
unprecedented degree of transparency to the process. The 
permitting timetables on the dashboard list target completion 
dates for permits. Each quarter my office and the permitting 
agencies review those dates and my office enforces restrictions 
for modifications to those dates. With nationwide visibility 
and a built-in accountability structure, the dashboard provides 
the public, project sponsors and other stakeholders with 
clarity and certainty in the permitting process.
    To my third point, project sponsors have contacted my 
office for help with specific issues such as when a sponsor 
received contradictory information from headquarters and field 
offices or when agencies working together on a project 
disagreed on a path forward. A notable success in this area was 
my office using the FAST-41 dispute resolution process to 
address a stalled review. The resulting coordination among 
agencies allowed subsequent authorizations to move forward and, 
as relayed by the project sponsor, saved an estimated six 
months and $300 million in capital costs to the project.
    Going forward, my office will continue to use the FAST-41 
tools of oversight, transparency, collaboration and 
accountability to improve the permitting process. The Fiscal 
Year 2018 President's budget request of $10 million provides 
the funding support we need to fully use these FAST-41 tools. 
As new projects come on board, from the start they will benefit 
from the enhanced transparency, coordination and agency 
accountability of FAST-41.
    Thank you for the opportunity to testify and I welcome your 
questions.
    [The prepared statement of Ms. Pfleeger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Pfleeger.
    Mr. Turpin, welcome to the Committee.

       STATEMENT OF TERRY L. TURPIN, DIRECTOR, OFFICE OF 
     ENERGY PROJECTS, FEDERAL ENERGY REGULATORY COMMISSION

    Mr. Turpin. Thank you.
    Good morning, Chairman Murkowski, Ranking Member Cantwell 
and members of the Committee.
    My name is Terry Turpin and I'm Director of the Office of 
Energy Projects at the Federal Energy Regulatory Commission. 
The Office is responsible for taking a lead role in carrying 
out the Commission's duties and siting infrastructure projects, 
including non-federal hydropower projects, interstate natural 
gas pipelines and storage facilities and liquefied natural gas 
terminals.
    Thank you for the opportunity to appear before you today to 
discuss federal infrastructure permitting and the Commission's 
processes for conducting environmental reviews required under 
the National Environmental Policy Act.
    As a member of the Commission's staff, the views I express 
in my testimony are my own and not necessarily those of the 
Commission or of any individual commissioner.
    Under the Federal Power Act, the Commission regulates over 
1,600 non-federal hydropower projects at over 2,500 dams. 
Together, these represent about 56 gigawatts of hydropower 
capacity which is more than half of all the hydropower in the 
United States.
    In the last five years, the Commission has authorized 71 
new projects with a combined capacity of over 2,400 megawatts 
and has relicensed 42 projects which continue to provide over 
91 megawatts of generating capacity.
    The Commission is also responsible under the Natural Gas 
Act for authorizing the construction and operation of 
interstate natural gas facilities and facilities for the import 
and export of natural gas.
    Since 2000, the Commission has authorized nearly 18,000 
miles of interstate natural gas pipeline which totals more than 
159 billion cubic feet per day of transportation capacity, over 
one trillion cubic feet of interstate storage capacity and 23 
facility sites for the import or export of LNG.
    For both of these types of infrastructure, the Commission 
acts as the lead agency for the purposes of coordinating 
federal authorizations and for the purposes of complying with 
the National Environmental Policy Act.
    As described in my written testimony, this environmental 
review is carried out through a process that allows cooperation 
from numerous stakeholders, including federal, state and local 
agencies, Native Americans and the public.
    The Commission's current approach allows for a systematic 
and collaborative process and has resulted in substantial 
additions to the nation's infrastructure. To a great extent the 
processes and vision by legislation such as FAST-41 and the 
recent Executive Order 13807 parallel the Commission's own 
approaches in improving early consultation and increasing 
transparency of project review.
    Commission staff is committed to working with all federal 
agencies to assist in successful implementation of these goals 
and to ensure the most effective processing of infrastructure 
matters before the Commission.
    So this concludes my opening remarks. I'd be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Turpin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Turpin.
    Mr. Brown, welcome.

    STATEMENT OF CHAD BROWN, WATER QUALITY UNIT SUPERVISOR, 
             WASHINGTON STATE DEPARTMENT OF ECOLOGY

    Mr. Brown. Thank you. Good morning.
    Madam Chair, Ranking Member Cantwell and members of the 
Committee, thank you for inviting the Washington State 
Department of Ecology to speak today.
    For the record, my name is Chad Brown and I supervise a 
team of staff responsible for the development and 
implementation of our state water quality standards.
    Washington State is fortunate to have more hydropower 
energy than any other state in the nation. With this valuable, 
renewable and carbon-free resource and its importance to our 
state, also comes the responsibility to manage a variety of 
regulations associated with the licensing of these energy 
projects. Among these is the responsibility to ensure that the 
water quality is sufficient to support swimmable and fishable 
rivers.
    As the water quality authority in the state, Ecology's work 
includes the issuance of state certifications for hydropower 
projects licensed by the Federal Energy Regulatory Commission. 
These certifications are issued through authority provided to 
states under Section 401 of the Federal Clean Water Act. These 
401 certifications provide assurance to hydropower producers 
that their project development and operations will meet 
applicable state environmental regulations.
    In the last decade, several large hydropower projects in 
Washington completed the FERC relicensing process. In this 
period, Washington successfully issued sixteen 401 
certifications which accounts for more than two thirds of all 
FERC-regulated hydropower in our state. This was a significant 
effort for our agency as well as for those hydropower 
producers, yet we met the challenge and we met this challenge 
collaboratively in large part due to the financial support 
provided by the hydropower industry through Washington's Water 
Power License Fee program.
    The fee began in 2007. In collaboration with the hydropower 
industry and other stakeholders, Ecology worked with our state 
legislature to institute a new fee based on the amount of water 
each licensed project uses to generate electricity. By basing 
the fee on the quantity of electricity a project can produce, 
the fees are distributed in a manner consistent with each 
project's revenue-generating capabilities.
    For a decade, these fee revenues have helped support the 
regulatory workload to efficiently and effectively meet 
licensing timelines for new and relicensed hydropower projects.
    The Washington State legislature recognized that this fee 
program was not without controversy and therefore included a 
provision requiring periodic reporting on the use of fee 
revenue. The reporting provides oversight and ensures 
accountability to periodically determine whether to continue 
assessing these fees.
    We utilized this provision in 2016 as we engaged with the 
hydropower industry and stakeholders to review the program, 
improve the quality of service and increase transparency of the 
spending of these revenues. With this, the state legislature 
extended this program to the year 2023.
    The Washington State Department of Ecology recognizes that 
the importance of finding efficiencies and improving licensing 
procedures in new and continuing energy projects. The water 
power license fee revenue model has become one such successful 
strategy to support this efficiency.
    We also acknowledge that there is room for improvement 
through federal legislation. House Bill 3043 and Senate Bill 
1460 both contain language which would act to improve the FERC 
licensing process. However, we believe that it is important 
that any new legislation be consistent with the current federal 
and state laws and maintain appropriate authorities in place to 
ensure protection of natural resources. My agency has provided 
comment on similar bills in past legislative sessions, and we 
appreciate improvements that were made in this regard. We have 
confidence that through collaborative development and review, 
final legislation can meet both goals.
    It is important that certifications, permits and other 
authorizations required to license energy projects be 
defensible in order to avoid challenge from project opponents. 
That any legislation that would improperly abbreviate 
environment review timelines or otherwise limit the authorizing 
agencies' ability to fully carry out environmental studies may 
lessen the defensibility of these projects. Limiting the 
ability to complete a full environmental review, may exchange 
efficiencies gained in the licensing process for greater delays 
in the courts.
    In closing, the Washington Department of Ecology supports 
the legislative intent of Senate Bill 1460 to improve licensing 
procedures, and we also believe that it is an imperative that 
final legislation also protect the current independent 
authority of states to ensure that projects meet important 
environment regulation. We also thank you for the opportunity 
to highlight our fee program as a means to improve one step in 
the licensing process. We believe the success of this program 
stems from the early engagement of hydropower producers and 
proper funding and dedicated staff which effectively retains 
expertise and supports continuity and consistency within the 
process.
    Thank you.
    [The prepared statement of Mr. Brown follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Brown.
    Ms. Perruso, welcome.

        STATEMENT OF ROXANE PERRUSO, VICE PRESIDENT AND 
      ASSOCIATE GENERAL COUNSEL, THE ANSCHUTZ CORPORATION

    Ms. Perruso. Good morning, Chairman Murkowski, Ranking 
Member Cantwell, members of the Committee and staff, I'm Roxane 
Perruso, Vice President and Associate General Counsel of The 
Anschutz Corporation.
    Anschutz has been active for more than 75 years developing 
energy and resource infrastructure in the West. We've spent the 
last 10 years working with the Department of Interior to 
develop two large energy infrastructure projects.
    The first project is the Chokecherry and Sierra Madre Wind 
Energy Project which is located in Wyoming and consists of up 
to 1,000 turbines with 3,000 megawatts of nameplate capacity. 
We applied to the Bureau of Land Management for a development 
grant for the wind project in 2008. After preparing an 
environmental impact statement and two environmental 
assessments, in 2016 the BLM authorized initial construction of 
the wind project and we started construction in 2016.
    The second project is the TransWest Express Transmission 
Project which is a 730-mile, high-voltage direct current 
transmission line that crosses 4 states, 14 counties and 
multiple federal jurisdictions including 10 BLM field offices, 
two national forests, as well as Bureau of Reclamation lands. 
We applied to the BLM for a right-of-way grant for the 
TransWest Project in 2008. The BLM and Western Area Power 
Administration acted as joint leads on the environmental impact 
statement and the BLM issued a right-of-way grant for the 
transmission line nine years later in 2017.
    Our hope is that the challenges that we faced in permitting 
these projects will provide opportunities to improve the 
process. But before I address the challenges, I want to 
acknowledge and thank the numerous federal employees that we've 
worked with over the past 10 years and continue to work with. 
And they are part, a very big part, of why the projects are 
where they are today.
    But based on our experience, we do believe that federal 
permitting, that process, especially for large, multi-
jurisdictional projects like TransWest, can be significantly 
improved through three things: increased consistency and 
policy, coordination with appropriate corresponding decision-
making authority and finally, accountability.
    One of the greatest challenges that we encountered was lack 
of consistency. We were faced with ever-changing policies. Two 
examples of significant policy changes that impacted us were 
one, Interior's policy on mitigation, and two, the BLM's 
competitive leasing rule. Over the last nine years, Interior's 
mitigation policy was revised seven different times resulting 
in project delays and additional costs as the goal post kept 
getting moved.
    Next, the BLM's competitive leasing rule was issued in 
December 2016. That's more than eight years after analysis on 
our wind project began, but this rule significantly affects the 
economics of the wind project by raising the rents over the 
life of the development grant for the wind project by about 60 
percent. So our recommendation here is that policy revisions 
should be carefully considered and should clearly direct 
agencies on whether and how the new policies should be applied 
to projects that are already in development.
    Next, coordination and communication with corresponding 
decision-making authority is essential. For TransWest, for 
example, routine coordination calls were held weekly and 
monthly. Yet, after having these calls for more than five 
years, major issues remained unresolved and while attempts at 
coordination and communication were, in fact, made, ultimately 
it was the lack of timely agency decisions or lack of line 
authority to ensure the decisions are made and issues are 
resolved, that resulted in substantially increasing permitting 
delays and costs.
    And finally, there's a lack of accountability regarding 
schedule and budgets in the federal permitting process. With 
both our wind and transmission projects the original schedule 
and the estimated budget more than doubled.
    This budget and schedule uncertainty and risk discourages 
the very development of energy and resource infrastructure that 
on federal land that the government is seeking to encourage.
    Now, we do believe that the FAST Act and CEQs involvement 
are, in fact, a very good step forward in addressing these 
issues. However, there needs to be accountability at every 
level such that agency personnel understand the work they're 
doing is very important, it's time-sensitive and it has real 
consequences for project proponents like us and also the 
development of the nation's infrastructure.
    In conclusion, while we acknowledge that the permitting 
process for large, multi-jurisdictional projects like ours will 
always be complex, reducing the permitting time, cost and 
complexity is achievable and it is necessary. And this, in 
turn, will encourage private investment in energy 
infrastructure projects and federal private partnerships.
    Thank you for the opportunity to provide these remarks 
today.
    [The prepared statement of Ms. Perruso follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Perruso.
    Mr. Russell, before we go to you, we are going to interrupt 
for this very important business message.
    [Laughter.]
    [RECESS]
    The Chairman. We will now turn back to our full panel.
    I thank members for coming here, and I thank the panel for 
your indulgence as we concluded our business meeting.
    Mr. Russell, you are last up on the panel. We welcome your 
comments before us this morning. Please proceed.

  STATEMENT OF LUKE RUSSELL, VICE PRESIDENT EXTERNAL AFFAIRS, 
                      HECLA MINING COMPANY

    Mr. Russell. Thank you.
    Chairman Murkowski, Ranking Member Cantwell and members of 
the Committee, my name is Luke Russell. I'm the Vice President 
of External Affairs for Hecla Mining Company. We are the United 
States' oldest and largest silver producer and third largest 
producer of lead and zinc.
    Metals and minerals are the building blocks of our nation's 
infrastructure. Simply put, it is impossible to create 
infrastructure without them. To quote our President and CEO, 
Phil Baker, ``At the end of the day you can't have the 
infrastructure and everything that goes with it if you don't 
have the underlying commodities that go into the bridges and 
roads and everything else.''
    Silver, copper and zinc are just three important minerals 
associated with Hecla's operations which are also key minerals 
for infrastructure and renewable energy. A single wind turbine 
contains 335 tons of steel and almost five tons of copper, the 
primary ingredient in most solar panels is silver, and zinc is 
a component in battery technology critical to the future of 
electric vehicles and energy storage.
    The United States is blessed with world class mineral 
endowment but sadly, has become increasingly dependent on 
foreign sources of minerals. We are now import-dependent for 50 
different metals and minerals and 100 percent import-dependent 
for 20. The length of time it takes to secure permits in the 
U.S., which takes an average of 7 to 10 years or longer, is a 
key reason behind this dependency.
    In addition, it is making the United States less attractive 
for investment. As an example, we were at a mining business 
development conference in Bear Creek, Colorado, earlier this 
year. We spoke to companies about 70 projects to invest in. 
Only two were in the United States.
    Let me share an example of the very long timelines I've 
been involved with with permitting. As one of the largest 
private employers in Southeast Alaska, Hecla's Greens Creek 
Mine went into production in 1989, some 16 years from discovery 
to first production, and has operated in harmony with sensitive 
environmental conditions for more than 28 years. With that 
history, one would expect that a plan for a minor expansion 
could be permitted expeditiously. Unfortunately, our experience 
proved otherwise. Permitting a small, 10+ acre expansion took 
more than 5 years and added just 10 years to the mine's life. 
So we're already preparing to start the permitting process 
again at a cost of millions of dollars in order to avoid 
shutting down the mine and laying off workers due to a lack of 
permitted tailings capacity.
    Prior to working with Hecla, I worked with Coeur Mining 
which owns the nearby Kensington Mine, also in Southeast 
Alaska. Permitting of that mine started in 1988 and, with 
permitting delays and litigation, first production did not 
occur until 2010, some 22 years after initial project 
permitting.
    Hecla recently acquired the Rock Creek project in Northwest 
Montana which is the largest undeveloped silver and copper 
project in the U.S. This project has been in permitting and 
litigation for over 25 years and counting.
    Now to be clear, valid concerns about environmental 
protection need to be fully addressed and considered. At the 
same time, we should not confuse the length of the process with 
the rigor of review. In my experience, permitting delays are 
frequently caused by inefficient and duplicative processes that 
do not improve the rigor of review.
    While mining is complex, there remains some of the 
permitting agencies that lack training on minerals and mining 
and the NEPA process. This serves only to exacerbate delays in 
the process which is driven by a lack of firm timelines, 
accountability for permitting and unreasonable exclusion of 
project proponents in the process.
    Well, what can be done? Chairman Murkowski recently 
introduced legislation that would allow mining projects to be 
eligible for consideration as covered projects under the FAST 
Act. Clearly, expedited permitting regimes for infrastructure 
projects will have little or no effect if the mines that supply 
minerals and materials to those projects do not have the same 
accelerated process.
    In addition, there's a great opportunity for the 
identification of regulations and policies across the federal 
agencies that needlessly delay or prevent mineral resource 
development, further jeopardizing the viability of our needed 
infrastructure projects. This can be accomplished by 
identifying the lead agency, defining clear roles of 
cooperating agencies to avoid duplication, establishing clear 
timelines, and providing accountability and predictability to 
the process.
    Thank you for the opportunity to testify here this morning.
    [The prepared statement of Mr. Russell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Russell.
    I think we have heard, we continue to hear, that 
uncertainty, unpredictability within the regulatory process--it 
adds time, it adds money. And when you mentioned the length of 
time that it takes to permit a mine in this country nowadays, 
Mr. Russell, you know, the two projects that you mentioned in 
Alaska, 22 years for one, 16 for another. For many, they would 
just walk away.
    You look at the reality of the process here and it does 
cause you to wonder how we are even able to have much of a 
mining industry in this country.
    We speak about how the United States is ranked, literally, 
at the bottom of the barrel when it comes to permitting for 
mines. I have also heard about how other countries, 
specifically Canada and Australia, have a competitive 
permitting--well, it is a permitting process, I guess, that 
gives them a competitive advantage.
    Now we have had some issues with some of the mines that we 
are seeing come on in Canada, but can you speak, just very 
briefly, to the permitting process that we see in other 
countries that, again, allow for a more clearly defined, or 
certainly more predictable, process that allows these projects 
to move forward while here in the United States it may be a 
two-decade process?
    Mr. Russell. Thank you, Chairman.
    Yes, I have experience in permitting in both those 
countries, Canada and Australia. I think the key difference is 
that there is a timeframe established at the beginning. The 
roles and the responsibilities of the cooperating agencies are 
well-defined so that there is certainly more predictability 
that the process will take two years or three years and then 
there will be a decision.
    But we have----
    The Chairman. And there is accountability at the end of 
that period?
    Mr. Russell. There's also accountability so that if the, if 
an agency is not moving within its timeframe, there is 
accountability. So that's a key aspect that's lacking in our 
system, is that even if schedules are established, there is no 
accountability to meet those schedules.
    The Chairman. Mr. Cason, in your testimony you mentioned 
that an average EIS is now about 4.6 years. And we think about 
the reality of that and what that then means to cost, 
uncertainty, lack of predictability.
    During the Obama Administration, President Obama 
acknowledged that permitting challenges were an impediment--
they held back growth and opportunity. In his 2012 Executive 
Order he pushed us to work through some of the permitting 
challenges. Then when President Trump came into office he 
updated that in August 2017.
    What actually have we seen then, if we are still sitting at 
about 4.5 years for processing of an EIS? We have had 
administrations, Republican and Democrat, that have said 
permitting is a challenge. They have laid down executive orders 
saying we need to do better than this. Have we accomplished 
anything?
    Mr. Cason. Accomplished at this point, I think, is pretty 
thin, but we are working on the issue. We have several things 
that are going on at the same time to try to address this 
issue.
    We, I'll say broadly in the Administration, recognize the 
NEPA process is taking way too long. You've quoted almost five 
years to get an EIS done, and there's a couple of things that 
are involved in that.
    First is that the length of EISs keeps getting longer and 
longer and longer. The last two that I saw were 5,000 pages and 
10,000 pages.
    And----
    The Chairman. Is it necessary that the EISs get longer?
    Mr. Cason. No.
    The Chairman. Why? I mean----
    Mr. Cason. No.
    The Chairman. ----if we acknowledge that this is part of 
our challenge here why are things getting longer and more 
complicated?
    Mr. Cason. My opinion about that is that a lot of the 
length is generated by two things. The first is a lot of 
contractors get paid by the page and so the more pages they 
write, the more they make. And secondly, is fear of litigation.
    We have a fairly long record where EISs are found, no 
matter what their length, to be insufficient and so you need to 
add more and more to it. So we've been trained, basically, to 
make them longer and longer and try to anticipate every 
possible question that anybody in the world might want to have 
an answer to and try to incorporate that in the EISs to offset 
the fear of litigation.
    I don't think that's the way it has to be. We're currently 
working with CEQ and with the White House and across the 
Executive Branch to take a fresh look at how we do NEPA 
compliance, and we're going through a process right now within 
Interior where our Deputy Secretary has issued a Secretarial 
Order that basically puts a page limit and a time limit on our 
NEPA compliance documents.
    It remains to be seen whether we'll be able to deal with 
litigation using these reduced page limits, but what we're 
going to try to do is move in a direction instead of having a 
10,000-page EIS, have an EIS that's 300 pages or less and gets 
done in a year to two years.
    So we're currently going through the process with a NEPA 
subgroup inside Interior which I chair, to look at the entire 
NEPA process to figure out what can't we cut out, what can we 
streamline, how can we write these better so that we can do 
them in less volume and less time. So that's an active process 
we're going through in concert with CEQ.
    The Chairman. Thank you.
    I recognize that the number of pages is not the end-all and 
be-all, it's the content in there.
    Mr. Cason. Right.
    The Chairman. I certainly hope that you don't work to 
reduce the font because it is already tedious enough to get 
through.
    Let me go to Senator Cantwell.
    Senator Cantwell. Mr. Brown, you mentioned in the statement 
about your support for the Senate language on hydro licensing. 
I take it you don't like the House language. Is there a problem 
with it? Could you explain that?
    Mr. Brown. We believe that the House language does, may act 
to, preempt authorities under Section 401 of the Clean Water 
Act, the language including certifications as a federal 
authorization and then modifying the timelines and having 
authority over what studies should be appropriated for that, 
for the issuing of that 401 certification. I think the language 
can be improved and allow for showing of state authority 
without preempting it.
    Senator Cantwell. Thank you.
    Ms. Perruso, one of the things I find puzzling is this 
issue of the Transmission Infrastructure Program and the 
proposed elimination of WAPA's borrowing authority. Can you 
comment on that?
    Mr. Perruso. Yes, thank you, Ranking Member Cantwell.
    We view the borrowing authority, WAPA's borrowing authority 
as written by Congress, as a very important program that 
creates public-private partnerships. We've been working with 
WAPA since 2011. WAPA acted as a joint lead on the EIS with the 
BLM and they've provided development funding for the project. 
We have viewed WAPA as our partner, and we want to keep them in 
the project.
    I will say that WAPA's interpretation of how they can use 
their borrowing authority has changed over the course of our 
relationship with WAPA. We believe they are not interpreting it 
the way that it was set out in the statute. And that is a 
concern of ours because it is incredibly difficult to build 
interstate transmission. And so, WAPA can play a very important 
role. And a partnership with them provides an independent 
transmission developer like us with credibility. And so, we 
really want to see WAPA participate in this project.
    Senator Cantwell. Thank you.
    Mr. Cason, Secretary Zinke stated at his confirmation 
hearing that he wanted to get a fair return for the taxpayer. 
Since then, the Department has reinstated the outdated, low 
price coal leasing. You guys have tried to suspend the BLM's 
methane rule, leaving millions of dollars on the table in 
royalties. You have suspended the royalty valuation rule--by 
your own estimates giving back $75 million every year to oil 
and gas and coal companies. The Secretary has created a Royalty 
Policy Committee stacked with partisan members without a single 
public interest voice. It seems to me you are leaving a lot of 
money on the table.
    Mr. Cason. I guess that's a point of view, thank you for 
sharing it.
    The Department is taking a look at each one of these rules 
that we're working on right now to make modifications that we 
think in the end will provide benefit to the American public.
    In some of these cases the royalty rules will be looked at 
by the Royalty Policy Committee which has about 20 members on 
it, representing states and Indian tribes and the industry and 
Department of the Interior and others, to take a look at how we 
fashion rules.
    A lot of the changes that were made there were related to 
how we view deductions or credits that come as part of the oil 
and gas development process and the marketing of oil and gas.
    The other rules, venting and flaring you mentioned, there 
were a lot of problems with the venting and flaring rule that 
as I understand it from the conversations I've had at Interior, 
the industry and Interior, neither one were well prepared to 
implement that rule. And it has certain complications that we 
were attempting to levy royalties on methane that was vented 
when we didn't have the presence of gathering lines to actually 
gather the materials. So we're going back to basically a 
conservation resource thought process.
    We, too, want to capture the methane. We just need to do it 
in a deliberate way, and we thought improvements to the rule 
would help with that.
    Senator Cantwell. Well, thank you.
    I think Congress has spoken on that. So I'm sure you'll 
hear from other colleagues of mine about their concern. I will 
just note, we have had improvements in hydro licensing. My 
colleague from Idaho and I worked on those in the 2005 bill, 
and it improved the process.
    I do think it is challenging for people to think of hydro 
licensing in the context of, you know, a 50-year licensing 
process that is basically about management and stewardship of a 
resource. But I will say that when people try to get the upper 
hand is usually when it goes wrong.
    What we have seen is when people come to the table, comply, 
look at the resource, and look at the management of these 
issues in a collaborative fashion, you have a very quick 
process. Yes, there are a lot of ``i''s to dot and a lot of 
``t''s to cross, but we have made progress.
    I hope you'll go back and look at that and understand that 
there is great responsibility here. And it is not just about 
the size or how many pages it is, but about whether people are 
going to come to the table and collaborate.
    Thank you.
    Mr. Cason. Thank you.
    Senator Daines [presiding]. Thank you, Ranking Member 
Cantwell.
    Chair Murkowski asked me to take over for a moment while 
she stepped out.
    The issue of excessively long permitting timelines is 
becoming all too common. I am very glad we have focused on this 
issue multiple times this year, and I hope we don't let up 
until we see some improvement.
    As Chair of the Senate Western Caucus, when our members 
develop priorities for any infrastructure package, streamlining 
the permitting process, like we are talking about here today, 
is a top priority. We will continue to encourage actions and 
hearings like this.
    Debilitating permitting infrastructures and timeframes 
affect all of our sources of energy and our natural resource 
production. We have wind. We have coal. We have hydro. We have 
mineral projects held up for years, sometimes even decades, in 
places like Montana. This is leading to less investment, less 
made in America energy and less jobs.
    Mr. Russell, as you well know, the Montanore and Rock Creek 
projects located in Lincoln and Sanders Counties in Montana--by 
the way, if you Google ``poorest counties'' in each respective 
state, Sanders County is the poorest county in Montana. Double 
digit unemployment rates. Poverty rates in excess of 22 
percent. And Lincoln County--recently I was having dinner with 
a couple up in Lincoln County and they said to me, ''Steve, 
basically, we describe Lincoln County as poverty with a view.''
    That is where the two mines, the mines that you are talking 
about, Mr. Russell, are located. They will produce two of only 
four world-class, silver and copper deposits in the U.S. These 
projects have been thoroughly vetted, thoroughly researched, 
thoroughly reviewed, beginning back in the 1990s--you mentioned 
in your testimony, it's 25 years.
    Cindy and I have four children. They are now all adults. My 
children, in some cases, were not even born yet when you began 
the permitting process for the Rock Creek and Montanore 
projects.
    Mr. Russell, you mentioned the Rock Creek project in your 
written testimony. What can we do on this Committee to make 
sure that projects like Rock Creek and Montanore which bring 
critical minerals and metals, millions in wages and tax 
revenue--by the way, when I met some of the county 
commissioners up in that part of our state, one of our county 
commissioners sat across the table from me and said, we're at 
the point now in our county because we've lost the revenue 
stream on our federal lands--in some cases 90+ percent of the 
lands in those counties are owned by the Federal Government. 
We've lost the revenue stream. They have no tax base.
    They are literally having to plow the roads in the 
wintertime as county commissioners because they had to lay off 
the road crews to get the kids to school, the school bus to get 
through.
    So what do we do here? What do we need to do so these 
projects don't languish in a never-ending permitting loop?
    Mr. Russell. Senator, thank you.
    I might notice the comment that the Rock Creek project over 
its life was forecast to generate $170 million in state and 
local taxes. That would go a long way to plow some snow in 
Sanders County.
    I think to answer your question is some of the key things 
that you've heard today is that we need to get more 
predictability and certainty in our timelines, have 
accountability on that timeline. That doesn't mean the review 
has less vigor. It's just that we set a predictable timeline.
    There needs to be better coordination with the agencies. 
Kensington is an example that took five years to do a minor 
expansion. The EIS was completed in four. The Corps of 
Engineers then took over a year to issue its permit. So, rather 
than working conjunctively, they worked in sequence and that 
added 25 percent to the timeline.
    And then thirdly, you've also heard this morning is the 
fear of litigation creates analysis paralysis. So there has to 
be some sort of a way to address the Equal Access to Justice 
Act or repeat litigants that continue to thwart economic 
development, responsible economic development, especially in 
poor counties like Sanders and Lincoln County which, I believe, 
is just a blatant environmental justice issue where these 
folks, very concerned about their environment, as you said, 
``room with a view'' but also believe that they can have 
responsible economic development. And it's a false choice for 
them to say it's one or the other.
    Senator Daines. I think that it has taken a quarter century 
and still counting here on the Rock Creek project. To me, that 
is outrageous.
    Mr. Turpin, in the remaining time I have--
    As I mentioned, permitting delays do not only affect our 
mining projects but renewables like hydro and wind. The Clark 
Canyon Dam project was recently approved by FERC after 
reapplication, and I thank you for that. We are still waiting 
on the Gibson Dam, but thank you for getting the Clark Canyon 
Dam project completed.
    Chair Murkowski, I am out of time.
    The Chairman [presiding]. Thank you, Senator Daines.
    Senator Stabenow.
    Senator Stabenow. Thank you, Madam Chair, for this hearing.
    I know that the testimony today has primarily been focused 
on how we need to streamline permitting and environmental 
reviews to spur economic growth.
    I want to raise a different issue that relates to economic 
growth that has been happening and is a concern of mine. I am 
very concerned about the implications of large volumes of LNG 
exports and the recent announcements regarding investments by 
China in U.S. gas businesses.
    We have talked in the past in this Committee, for some 
time, about the importance of low-cost, domestic natural gas 
manufacturing. The good news is, according to the industry 
analysts, low-cost natural gas in America was the catalyst for 
$160 billion in manufacturing investments over the last seven 
years, since 2012. That is a big deal. That is very, very 
important to us.
    Yet, right now, our government is taking actions that will 
drive up gas prices, which is of great concern to the 
manufacturers that I talked to. The Energy Department has 
approved just under 55 billion cubic feet per day of LNG 
exports, which is a very large amount of gas, and the Energy 
Information Administration says natural gas prices will 
actually increase 2,018 percent by 2025 with some of that 
increase directly tied to new LNG export facilities coming 
online.
    Now we have Chinese state-owned companies investing large 
amounts of capital in U.S. natural gas which raises a lot of 
concerns, and I believe that really requires closer scrutiny by 
all of us--what is happening with that?
    The Natural Gas Act requires that approval of shipments to 
non-free trade countries must be in the public interest. I 
don't believe the shipments of these magnitudes of gas could 
possibly be in the public interest. I don't oppose LNG exports, 
but I think rushing to export a resource that is critically 
important for American jobs and manufacturing is something that 
should be a shared concern for all of us.
    Mr. Turpin, I know FERC is responsible for the 
environmental review and not the ultimate approval of LNG 
exports, but could you speak to how low gas prices benefit the 
U.S. economy?
    Mr. Turpin. Well, as you stated, the Commission is involved 
in looking at the specific impacts related with the 
construction of those facilities. The economic analysis, the 
price impact analysis that you're referring to are things that 
are done by the Department of Energy. And so, I really can't 
speak to those.
    Senator Stabenow. Anyone else want to speak to the 
importance? Well, maybe you don't think it is important to have 
low gas prices for domestic manufacturers, but I am wondering 
if someone would want to speak to that because it certainly has 
been an important part of increasing jobs in the last number of 
years in manufacturing.
    Mr. Russell, you are shaking your head.
    Mr. Russell. I certainly agree.
    I mean, obviously, it's a major, energy is a big cost to 
mining and so, I echo your thoughts that the lower energy is 
very important to maintaining our competitiveness in our 
industry.
    Senator Stabenow. Thank you.
    Madam Chair, I really do think this is something, 
particularly the Chinese investments in U.S. gas projects, of 
concern to me as we go forward to be able to balance both the 
interests in exporting but also American jobs in terms of 
manufacturing.
    There is one other thing also that I wanted to raise that 
is, again, not quite on point of the hearing, but I think is 
really important to talk about, and that is pipeline safety as 
we look at going forward.
    I know that transporting oil and gas via pipeline certainly 
is safer than rail and other transportation modes, but at the 
same time, I am very concerned that pipeline safety is not 
improving as we are talking about all these issues.
    Between 2010-2017, there were 4,269 pipeline incidences 
resulting in $3.5 billion in damages and 64 fatal injuries. We 
know that specifically in Michigan because of a line that burst 
releasing a million barrels of oil into the Kalamazoo River--
which was the largest ever U.S. inland oil spill, costing more 
than $1.2 billion to clean up.
    We are currently concerned about a gas and oil pipeline 
going under the Great Lakes, a 64-year-old plus pipeline where 
there is great concern about the integrity and safety of the 
line.
    So I know that this, again, is about streamlining 
permitting for new pipelines, and I know FERC has jurisdiction 
over interstate gas lines, not oil pipelines, but again, I 
would ask Mr. Turpin, what is being done to ensure pipelines 
are safe by other federal agencies? Are you working with others 
on the safety end of things as all of this discussion is going 
on?
    Mr. Turpin. For the natural gas pipelines that are in the 
Commission's jurisdiction, of course, authority over the safety 
is under the Department of Transportation. We attempt to 
coordinate with them on their process. We involve them as 
cooperating agencies to the extent that they want to cooperate, 
and we have representation on their Advisory Committees for new 
pipeline rules.
    Senator Stabenow. Thank you.
    Madam Chair, I have a request that I would love to see us 
do a joint hearing with Commerce on pipeline safety issues at 
some point just to raise, as we are talking about streamlining 
and moving forward, the safety issues that are, obviously, very 
important as well.
    Thank you.
    The Chairman. Thank you, Senator Stabenow.
    Senator Risch, I believe, is up next.
    Senator Risch. Well, thank you very much, Madam Chairman.
    The Chairman. Or excuse me, wait, I am way out of line.
    Senator Risch. Yes, you are.
    The Chairman. Yeah, yeah, yeah.
    [Laughter.]
    Senator Gardner was going to jump on you here.
    You were sitting next to Senator Barrasso there and I got 
confused.
    It is Senator Gardner, excuse me.
    Senator Gardner. Well, thank you, Madam Chair. If it will 
make my seniority greater on the Foreign Relations Committee, 
Senator Risch, I am happy to yield to you.
    [Laughter.]
    Thanks to all of you for your time and testimony today.
    Madam Chair, thanks very much for holding the hearing 
today.
    Ms. Perruso, we have had many conversations over the past 
several years, beginning in 2011, talking about some of the 
permitting challenges that this great renewable energy project 
has gone through. During one of our conversations that was 
focusing on WAPA, you stated the Western Area Power 
Administration signed on as a TransWest project participant in 
2011 but now it is my understanding that they are taking a, 
perhaps, different view on whether they can be an equity 
partner versus a financier of the project.
    Could you just talk through what changed, why that changed 
and why it is important?
    Ms. Perruso. Thank you, Senator Gardner.
    The statute itself that created Western's borrowing 
authority has not changed. It allows for constructing, 
financing, facilitating, planning, operating, maintaining and 
studying construction of new electric power lines.
    And we actually are uncertain about why WAPA's view of how 
they can use their authority has changed. And you said it just 
right, they have changed their view from using it as potential 
equity for ownership to more of a financing mechanism, 
revolving financing account.
    I'm not sure why their attitude has, or why their view has 
changed, but our commitment, in terms of wanting them to 
partner with us in a private-public partnership, remains the 
same, as is our commitment to mitigate any risk that there 
would be to WAPA or the taxpayers in using their authority.
    Senator Gardner. Well, thank you. I hope we can get an 
answer from WAPA on this important question.
    Mr. Turpin, LNG exports, we have talked a little bit about 
it here today, such as Jordan Cove which will export natural 
gas from Colorado. It is becoming a bigger issue because as 
more development in the Midwest takes place, we are losing 
access, perhaps, to some of the markets we have had. And so, 
the Rocky's gas can become a little bit more stranded, perhaps, 
so we need a Western outlet for that incredible gas production 
that we have.
    The Jordan Cove project would allow us to export to Asia, a 
market that is critical to the U.S. from both an economic 
standpoint and a security standpoint.
    If you look at some of our potential trade partners there: 
South Korea, obviously, a very incredibly important trade 
partner; Taiwan, a very important trade partner; Japan, a very 
important trade partner; all of whom have expressed interest in 
a stable, affordable supply of energy from the United States. 
Helps us economically, creating tens of thousands of jobs in 
the Western United States, in particular, but it also gives our 
greatest allies the security that they need so they are not 
reliant on China or other nations for their energy.
    So this is both an economic and security imperative that we 
would be moving forward with this, but the permitting process 
at Jordan Cove has been tough. It has been long and, of course, 
FERC has made that even more complex with the different, 
rigorous standards and road blocks that have been put in place.
    What additional authority would be of help to FERC to 
accelerate the issuance of permits by cooperating agencies on a 
project, once it has been approved by FERC?
    Mr. Turpin. I think you've hit, probably, on sort of, one 
of the fundamental problems with how the U.S. has approached 
its permitting and it's been to give, sort of, decentralized 
permitting authority to many different agencies, each of which 
that has a slightly different mission or different take on the 
infrastructure.
    I can't point to a single fix or a single authority to say, 
you know, give FERC this and things move better because for the 
most part what I've seen in my tenure at the Commission is that 
for every project it's a different bag of issues that come up 
that are raised or that might need solutions. So about the only 
thing that makes sense is more of what's been done with FAST-41 
and others is that accountability for agencies, and we can 
engage as much as we like with agencies so it can lead the 
horse to water kind of thing.
    We can get them on board and yet, in the end they still 
have their decision to issue under federal authority and that's 
what, you know, they'll take their time doing.
    Senator Gardner. So it is my understanding that FERC has 
not issued either a final or draft environmental impact 
statement in 2017, nor any orders, but there are 11 major LNG 
export projects that are now pending at FERC.
    So is there a holdup? If there is, what is it and when can 
we expect additional authorizations?
    Mr. Turpin. So the LNG projects that are there, probably 
the longest lead time item for those has been coordination with 
the Department of Transportation over their siting regulations. 
That has been something that's evolved over the last four or 
five years as plants have moved from import to export, a 
different range of hazards that need to be considered and DOT 
has been working out how its siting regs can be applied.
    So I think that coordination, you know, having that 
continue is vital and having DOT put the resources needed to 
get those things solved is vital.
    Senator Gardner. Well, thank you.
    And I have additional questions, but I am out of time.
    But I think it goes back to Ms. Perruso's comments at the 
very beginning when she laid out three things: consistency, 
coordination and accountability. And I think you mentioned both 
consistency and coordination in your answer. We didn't quite 
get to accountability but the accountability is there on our 
end to make sure that we solve this problem and make permitting 
a process that works for this country economically, and I look 
forward to doing that with all of you.
    Thank you.
    The Chairman. Thank you, Senator Gardner.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Mr. Cason, I was surprised that the Interior Department's 
report on impediments to domestic energy development included 
no opportunities for improvement specific to permitting or 
siting of renewable resources on public land. Zero.
    For a number of years now, I have worked with Senator 
Heller on legislation to improve the process for siting wind, 
solar and geothermal projects on public land. And we have a 
pretty substantial group of bipartisan co-sponsors now, 
including Senator Risch, Senator Gardner, Senator Daines, who 
was just here, all members of this Committee. Does the 
Department really not see any opportunities for improvements 
specific to clean energy projects on public land?
    Mr. Cason. I think there's possibilities for drawing 
different conclusions about how to address those.
    I've personally had both solar and wind groups come in to 
visit with me about how we can do things better within the 
Department of Interior. Each of them have views of things that 
we can do and we're taking a look at those.
    One of the chief----
    Senator Heinrich. What are your ideas for improving that 
process?
    Mr. Cason. Well, one of the chief things that seems to be 
an issue is in both siting wind and solar they tend to sprawl 
over a fairly large area to make it economic to do and one of 
the issues that seems to be in place is descriptions about BLM 
not being willing to allow those large areas to be set aside 
for them due to other, I'll say, complications like protecting 
endangered species or keeping open areas open. So it is an 
issue that we're taking a look at.
    Senator Heinrich. We do oil and gas at, you know, 40- and 
160-acre spacings. How is that different than doing a wind 
turbine spacing?
    Mr. Cason. Well, the difference is you may take 160-acre 
spacing and you have a well pad that takes up 100 feet by 100 
feet out of that.
    Senator Heinrich. Just approximately what a wind turbine 
also----
    Mr. Carson. Well, one wind turbine, yeah.
    Senator Heinrich. Yes.
    Mr. Cason. And for solar----
    Senator Heinrich. But my point is that on an oil and gas 
field you might have tens of thousands of acres----
    Mr. Cason. You may.
    Senator Heinrich. ----with 160-acre spacings. That doesn't 
really seem to be any different than a substantial wind 
project.
    Mr. Cason. Okay.
    Senator Heinrich. And a solar project actually takes up 
less of a footprint, so I'm not sure I understand the logic.
    Mr. Cason. Well, it depends on the size of the project. You 
can have very large projects or very small projects in all of 
the forms of energy.
    I'm not quite sure why we don't have some suggested 
improvements we can make on the renewables, but if you have 
particular suggestions to make, I'd be happy to run those down 
to ground and get them into the process.
    Senator Heinrich. We would love to share our legislation 
with you.
    Mr. Cason. Okay.
    Senator Heinrich. I want to go back to NEPA for a moment.
    I think most folks wouldn't care if an EIS can be done in 
10 pages or 1,000 pages, so long as the individual EIS actually 
addresses and analyzes the relevant environmental issues.
    I think I would be a little concerned, or at least I think 
there would be a concern, that a hard cap, whether it is 300 
pages or whatever the number is, on pages in an EIS could be 
seen as arbitrary. Do you understand that concern?
    Mr. Cason. Yes, and it's not a hard cap, it's a goal, and 
the Assistant Secretaries under the Secretarial Order are 
allowed to go beyond the 300-page limit or 150 pages for easy 
EISs. So there is a mechanism in place in the Secretarial Order 
to exceed that threshold, if it's needed.
    Senator Heinrich. I want to go back to one other thing you 
said. You said there were significant problems with Interior's 
methane rule.
    Yet, Colorado has very successfully implemented an almost 
identical rule. They have done that both successfully and 
profitably, and coming from a state where NASA has literally 
mapped the largest methane plume in the United States, a 
globally significant methane plume, I am having a hard time 
understanding why this is taking so long.
    Can you go back and explain, once again, why this rule is 
not being implemented, and why we are seemingly not 
prioritizing public safety?
    Mr. Cason. Well, it's not a matter of not prioritizing 
public safety on the venting and flaring rule.
    When I came to Interior as part of the beachhead team, I 
received feedback from within Interior that we were not well 
prepared to actually implement the rule and received feedback 
from external groups that they were not prepared to comply with 
the rule and that certain things needed to be done to allow 
both parties to do their jobs well.
    We recognize that there are a number of states that have 
adopted their own regulations dealing with venting and flaring. 
What we chose to do is suspend the effect of the rule and then 
go back and, basically, take a look at a public comment process 
so we can get feedback from the general public and the industry 
regarding how we should do this role better.
    Senator Heinrich. I am over my time here but I will just 
share with you, the frustration from my communities comes from 
looking across the border at BLM land in Colorado and seeing a 
set of, you know, regulations being implemented that have 
improved the way things are done and not seeing those changes 
in their own communities.
    Mr. Cason. Okay.
    Thank you.
    The Chairman. Thank you, Senator Heinrich.
    Senator Barrasso.
    Senator Barrasso. Thank you, Senator Murkowski.
    Ms. Perruso, thank you for being here today to tell the 
story and tell us about your company's exciting project in 
Wyoming.
    You know, in Wyoming we are blessed with many energy 
resources. We have vast reserves of coal, of oil, of natural 
gas. And we also have world class wind in addition to the 
uranium that we have. So it really is an all-of-the-above 
approach to energy dominance for America. And we need to use 
all of our energy resources to grow our economy and to keep 
energy prices low.
    Now, your company's project is a multi-billion-dollar 
infrastructure project that is going to create jobs. It is 
going to deliver much needed power to the Western grid. So I 
look forward to the continued progress of the project and the 
benefits that it is going to bring to, certainly to, Wyoming, 
but also to the United States.
    Now, you explain in your testimony that the Federal 
Government has actually added substantial new fees to your 
company's project without prior notice. Specifically, I think 
you stated that the BLM's so-called competitive leasing rule, 
issued in the final weeks of the Obama Administration, 
increased fees for wind and solar power generation projects 
that are developed on federal land. You also stated that this 
rule did not grandfather in existing projects, including 
projects such as yours, that have been in development for 
years.
    Could you please describe the total cost impact of this 
rule, that was in the final days of the Obama Administration, 
on this project and explain whether you think that these 
increased fees imposed by the Obama Administration will have a 
chilling effect on the future development of energy resources 
on public lands?
    Ms. Perruso. Yes, thank you, Senator Barrasso.
    To put a little context on the timeframe, we actually 
started construction on the wind project on September 9th, 
2016. Exactly three months later on December 9th, the BLM 
issued the final rule. The final rule does increase the fees 
associated with wind development on public lands. It will 
increase the fees for our project by an estimated $47 million 
to $106 million over the term of our development grant.
    The purpose of the rule was to encourage development of 
renewable energy on public lands and there are incentives in 
the rule for developers going forward that includes streamlined 
permitting and some contractual advantages if you're located in 
a designated leasing area. However, we won't be receiving any 
of those benefits, nor will other developers like us who've 
already taken the risk to develop renewable energy on public 
lands. We are just getting this increased cost.
    We shared our concerns with the Administration throughout 
the rulemaking process with no success, and we are asking the 
Committee to consider a provision in the Energy bill that would 
exclude projects like ours from application of the rule.
    We understood that we were assuming risk when we went to 
develop our project on public lands, but we did that based on 
the rules of the game at the outset. The rules should not be 
changed for projects like ours at this late date.
    Senator Barrasso. So this is a rule that came out, not only 
late in the Obama Administration, actually after the election, 
after it was obvious that the election results were in. So this 
was into December in the final six weeks or so of the Obama 
Administration, kind of a midnight rule that came out.
    You know, in your testimony you state that the TransWest 
Express Transmission Project in the Chokecherry and Sierra 
Madre Wind Energy Projects were designated as ``covered 
projects.'' You talked about that under the Fixing America's 
Surface Transportation Act, the FAST Act.
    You explain that the benefits of being designated a covered 
project are numerous, specifically, challenges to agency 
decisions that approve a covered project must be made within a 
short timeframe and courts must consider the economic impact 
when evaluating a challenge to the project. Could you please 
elaborate on the benefits of being designated a covered project 
under the FAST Act and explain whether you think Congress 
should consider broadening that scope of eligible projects 
under the FAST Act?
    Ms. Perruso. Yes, thank you.
    We were notified that both the transmission project and the 
wind project were designated as covered projects since 
September 2016, so toward the end of our permitting process.
    Because our projects were so advanced at that point in 
time, we weren't able to fully benefit from the dashboard and 
tracking provisions that you heard about, but they do provide a 
level of accountability and we do appreciate the follow-up that 
we did receive under that program regarding the status of 
permitting.
    The other two benefits, though, that we see with the FAST 
Act relate to when agency decisions are challenged. Generally, 
challenging agency decisions falls under the general statute of 
limitations for actions against the United States of six years. 
Under the FAST Act, the statute of limitations is two years 
after the date of publication in the Federal Register. The FAST 
Act also provides that as part of any preliminary injunction 
proceeding that could conceivably stop progression of a 
project, the court will consider an additional element that 
includes consideration of potential effects on public health, 
safety, environment and also the potential for significant 
negative effects on jobs. So these two provisions, the two-year 
statute of limitations and the additional preliminary 
injunction standard, give developers more certainty that any 
challenges to the agency's decision will be raised in a 
reasonable amount of time and that the court will consider the 
wider effects of adjoining a project when determining whether a 
preliminary injunction is appropriate.
    Each of these factors reduces development risk and could 
assist in encouraging federal projects. And so, if the 
applicability of the statute were broadened, it could be 
helpful.
    Senator Barrasso. Thank you very much.
    Thank you, Madam Chairman.
    I have some other questions I will submit for written 
response.
    Thank you.
    The Chairman. Thank you, Senator Barrasso.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair, and thank you 
for this hearing.
    Mr. Cason, the BLM has sent a request to the U.S. Forest 
Service to determine whether 54,000 acres in the Ruby Mountains 
in Nevada are suitable for oil and gas leasing. This request is 
opposed by state environmentalists, hunters, anglers and 
tribes. It also serves--if you don't know, the Ruby Mountains 
in Northern Nevada serve as a critical habitat for several 
species including the Lahontan cutthroat trout, which is 
Nevada's state fish. Can you tell me why the agency sent the 
request?
    Mr. Cason. It's often the case that the BLM manages the 
subsurface of our state out in the federal country. We have 
about 700 million acres of subsurface estate that we manage. 
And often we'll have Forest Service as a surface owner over our 
subsurface estate. So we collaborate with them to find out what 
their views are on prospective entries that we would make into 
the subsurface and----
    Senator Cortez Masto. Can I ask why you made the request?
    Mr. Cason. I'm not familiar with that particular request.
    Senator Cortez Masto. Can you get me that information, 
please?
    Mr. Cason. Sure.
    Senator Cortez Masto. The concern is this. That is a 
pristine area that has for decades been utilized by people in 
Nevada who support continuing the protection and do not support 
opening it up to oil and gas leasing.
    I am curious why the request all of a sudden came? Who was 
behind the request and asked you to send that over to the 
Forest Service? If you could provide that information, that 
would be very helpful.
    Mr. Cason. Sure, happy to.
    Senator Cortez Masto. Thank you.
    I am from the State of Nevada where we actually have a 
history of mining, along with--we are an incredible state right 
now--leading the country in renewable energy with solar, wind 
and geothermal.
    I appreciate the comments today, because this is something 
that I hear from both industries--streamlining our permitting 
processes, doing away with the duplication and how we can do 
the coordination better amongst the federal agencies to help 
the companies and to continue to promote, as well, the 
industries.
    So let me ask this question. I guess, is it Ms. Pfleeger?
    My understanding is the Federal Permitting Improvement 
Steering Council was created to do just that--to engage in that 
coordination and streamline that permitting process. But it has 
only been in existence for about a year, is that correct?
    Ms. Pfleeger. The law was passed in December 2015, and the 
first permanent staff were hired in January. And we've been 
working with all of the Permitting Council agencies to do the 
very things that some of the non-government witnesses 
expressed----
    Senator Cortez Masto. I appreciate that. So you have heard 
the comments today. My thought is that you are there to address 
the issues that we have heard today. Nothing else needs to be 
done other than to let your agency do its job and coordinate 
amongst the federal agencies. Is that your understanding, or is 
that your intent with the Committee or the Council?
    Ms. Pfleeger. Yes.
    The need for, that they expressed, the coordination, the 
accountability--that's happening through the dashboard.
    Those principles are all part of FAST-41 and, as we've been 
rolling it out and standing up the law, people are hearing 
about it more and more. The projects are already benefiting.
    The next step that you're going to see are new projects are 
coming in and benefiting from FAST-41 at the start.
    As Ms. Perruso said, they were, kind of, covered as a 
pending project late in the process.
    As these new projects come in, that's the key thing because 
right from day one there will be a lead agency assigned. That 
lead agency will bring together every cooperating and 
participating agency.
    And another one of the witnesses mentioned roles and 
responsibilities need to be defined. Yes, that's part of this 
coordinated project plan----
    Senator Cortez Masto. I apologize, I only have so much 
time.
    Ms. Pfleeger. Yes.
    Senator Cortez Masto. Do you need additional tools? Should 
we be giving you additional tools to address the concerns that 
we are hearing today?
    Ms. Pfleeger. One of the things in the President's Fiscal 
Year 2018 budget request of $10 million, that would allow us to 
use the existing FAST-41 tools to fully implement FAST-41.
    Senator Cortez Masto. Okay.
    Thank you very much.
    And then, Mr. Cason, the House Natural Resources Committee 
recently held a hearing on environmental regulation reform 
where they heard from a 27-year veteran of CEQ, who testified 
that two of the greatest reasons that cause delays in NEPA 
reviews deal with capacity within the agency: one, lack of 
staff with responsibility for NEPA implementation; and two, 
lack of NEPA review training. Would you agree?
    Mr. Cason. I think those are contributors.
    Senator Cortez Masto. I am running out of time, but I would 
like your thoughts, and I will submit this for the record as 
well, a part of the thought with respect to giving 
responsibility back to some of the staff includes publishing 
Notices of Intent to the Federal Register. My understanding is 
that's mandated now that they have to come to DC, instead of 
letting the BLM managers make that decision. I am curious what 
you and the Secretary feel on publishing those Registers and 
giving that authority back to those BLM managers in the state.
    So thank you very much.
    Mr. Cason. You're welcome.
    Senator Cortez Masto. I appreciate it, and I am out of 
time.
    Thank you.
    The Chairman. Thank you, Senator.
    Now let's go to Senator Risch. Long awaited.
    Senator Risch. Well, thank you so much. I never thought you 
would get to me.
    The Chairman. Yeah, yeah, yeah.
    Senator Cortez Masto. Alphabetical.
    Senator Risch. Senator Cortez Masto, meet Mr. Russell, who 
helps make the silver state, the silver state. Fair statement, 
Mr. Russell?
    Mr. Russell. Thank you----
    Senator Risch. You know, in response to Senator Heinrich, 
he is quite right. I am a co-sponsor of the bill for helping to 
streamline the processing for renewable energy. My only regret 
is all the sponsors of that wouldn't be co-sponsors of the bill 
to do the same thing for non-renewable energy, but nonetheless, 
we are at least all in agreement on the renewable energy.
    That brings me to you, Mr. Russell. I am so glad you were 
able to come here and tell the Committee the story of Rock 
Creek. I have tried to tell as many people as I can. I will 
also try to put it in perspective. Since the permitting 
started, I have finished up an almost 30-year career in the 
state senate, served as state's lieutenant governor, served as 
state's governor and now have been here almost a decade. Are we 
getting close?
    [Laughter.]
    Mr. Russell. Chairman, Senator, I actually think we are.
    The Rock Creek project is scheduled to have a supplemental 
EIS and final record of decision in the first quarter of 2018. 
Unfortunately, that's seven or eight years after it was 
remanded back by the judge.
    Montanore, unfortunately, got caught up in the litigation 
as well and was remanded back, and the agencies are working to 
revise that record of decision. I must say, someone made the 
comment earlier, we've been very pleased with the attitude of 
the Forest Service to try to get this done. It just is taking a 
long, long time on both projects.
    Senator Risch. Well, thank you so much for your 
persistence. This is a project that is badly needed in the area 
that it is in for the reasons everyone stated with the poverty 
and everything else that is there.
    In addition to that, I can say that having been intimately 
associated with this for decades that Hecla has gone the way 
extra mile in seeing that the environment is going to be 
protected.
    Obviously, there are some very important lands, as you 
know, both in Montana and Idaho that you have been very 
sensitive to caring for as you have gone through this process. 
So thank you for that.
    Most of all, these kinds of stories are just staggering 
when people go out as entrepreneurs, as people who are going to 
create wealth and make life better for Americans and they get 
nothing but beat over the head from their government and very 
little help.
    So thank you for your perseverance through various 
administrations, decades, through recessions and everything 
else to get to where you are and keep it up. Someday we are 
going to get there, and we sure appreciate what you have done.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Risch. Your description of 
your timeline, just kind of boggles the mind.
    But Mr. Russell, you mentioned in your statement you have 
gotten an extension for this expansion, small expansion, ten 
acres out at Greens Creek, and the reality is that you have to 
start the permitting request for the next leg of it before you 
have even allowed the ink to dry on the permit that has just 
been granted because it takes a full decade, and more than a 
full decade in many, many cases. Just quite, quite incredible.
    Senator King.
    Senator King. Madam Chair, as I was listening to today's 
hearing I am reminded of a little-known passage in the Old 
Testament where God came to Moses and said, Moses, I have good 
news and bad news. Moses said, what's the good news? God said, 
I'm going to empower you to part the waters of the Red Sea, 
allow the Israelites to escape, and after they have escaped, 
the waters will come back and engulf the army of the Pharaoh. 
Moses said, that's wonderful, God. What's the bad news? God 
said, you have to prepare the environmental impact statement.
    [Laughter.]
    Senator Risch. You know I have read the Old Testament. I am 
pretty sure that's not exactly the way that story went.
    [Laughter.]
    Senator King. I find this hearing fascinating because this 
is an issue I've been wrestling with for 30 years. I've been an 
environmental advocate, a developer, a governor, and an 
administrator. What I said when I was the Governor of Maine, 
was we want the most stringent environmental standards in the 
country and the most timely, predictable and efficient 
permitting process.
    I think that is exactly what we ought to be reaching for. 
To me, there should not be a conflict between environmental 
standards and a timely and efficient permitting process. The 
question is, how do we get there?
    Mr. Russell, I think you outlined at the end of your 
testimony a set of standards that are worth discussing. As I 
have in my notes, identify a lead agency, I think that is 
crucial. In our experience in Maine, having one agency that is 
responsible, not multiple, serial permitting applications 
before multiple agencies. Define the responsibilities of all 
the agencies that are involved in making contributions to the 
process. Have parallel analysis among these agencies so it is 
not seriatim and therefore strings out the time. And then, 
establish reasonable time limits and hold people accountable. 
Is that an accurate statement of where you think we ought to be 
headed?
    Mr. Russell. Chairman, Senator, I think you've nailed that. 
That's exactly right.
    And I think the provisions of the FAST best management 
practices are right along those lines.
    Mining, however, is not currently a covered project. If we 
could bring mining into a similar regulatory regime, I think 
that would be tremendously helpful to accomplish those 
objectives.
    Senator King. Well, Ms. Pfleeger, I am a little unclear on 
where your agency resides in the constellation of federal 
agencies. Are you within another department? Are you 
independent? Where do you stand?
    Ms. Pfleeger. So, the Permitting Council, it's an 
independent Council and OMB was given the statutory authority 
to pick an agency to house it. We are housed in General 
Services Administration.
    Senator King. So the key is, I think you have articulated 
today, to give you some funding so that you can continue the 
function. And the outline that I gave, is that essentially the 
direction that you are trying to move federal agencies?
    Ms. Pfleeger. Yes and we are doing that.
    As I just mentioned, it's when the new projects come on and 
they see these benefits from the start, that you all will start 
to see the improvements in the streamlining of the permitting 
process.
    Senator King. My concern is that in this situation we see 
the pendulum swinging back and forth to excessive and untimely 
regulation that impedes responsible development, but we don't 
want to swing back to the point where we open the floodgates to 
irresponsible environmental damage that we will have to live 
with for generations.
    So I think, Madam Chair, the challenge is that in our 
desire to clean up the environmental, that's an odd choice of 
terms, cleanup the regulatory process, that we not go too far 
and undermine the goals of which the regulatory process was 
established to protect.
    I do want to associate myself with Senator Stabenow. This 
is a separate issue. I am gravely concerned, Madam Chair, about 
the volume of natural gas exports. We had a hearing in this 
room three years ago where an expert witness for the natural 
gas industry sat where you are sitting Mr. Turpin----that's why 
I'm looking at you--and said, we will never export more than 
nine percent of domestic production.
    We have now approved 55 billion cubic feet a day for export 
and annual production is 78 billion cubic feet a day.
    The one law that this Congress cannot repeal is the law of 
supply and demand. It concerns me that we are squandering one 
of the few advantages we have, vis-a-vis Asia and China, in 
terms of the support for manufacturing and the low, relatively 
low, cost of natural gas.
    If we give that away to these competitors, it will simply 
be one less advantage we have. Senator Gardner mentioned 
thousands of jobs--we are talking hundreds of thousands, if not 
millions of jobs--in the manufacturing sector that have been 
enabled by the low cost of natural gas.
    I just am concerned. It is not relevant to this hearing, 
but I have to associate myself. I am afraid we are going to 
look back in four or five years and say, what were we thinking? 
We have given away an enormous and national advantage in the 
energy field that is tremendously important to our 
manufacturing sector.
    So with that, Madam Chair, I compliment you on this 
hearing. I think this presents very important issues that I am 
certainly willing to work with you to try to address.
    Thank you.
    The Chairman. I look forward to that, Senator King.
    I would just note that Senator Inhofe has asked that a 
statement be included for the record in support of the bill 
that he has co-sponsored with you. This is S. 1844, the 
Coordinating Interagency Review of Natural Gas Infrastructure 
Act of 2017.
    We are going to include that statement from Senator Inhofe.
    Just not exactly speaking to your point there, but talking 
about natural gas. So that will be included as part of the 
record.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Senator Duckworth.
    We have just concluded with members, and you are next up.
    Senator Duckworth. Thank you, Madam Chair. I squeaked in 
under the wire. Thank you.
    I just want to start by saying thank you for holding this 
hearing and just to say that while I support efficient 
permitting systems and understand that it can be extremely 
challenging to industry, I do believe we have to be discerning 
on what projects we permit and where. For example, I vehemently 
oppose the Administration's recent decision to make the largest 
ever reduction in public lands protection in American history 
at two national monuments.
    In fact, when Secretary Zinke was nominated to be Secretary 
of the Interior, he likened himself to President Teddy 
Roosevelt, the father of our National Park System, and I cannot 
imagine a less accurate portrayal of Secretary Zinke's views of 
conservation. President Roosevelt is the father of the 
Antiquities Act and would never have recommended repealing land 
protections so that uranium mining, oil drilling and coal 
mining can take place.
    Mr. Cason, does the Administration have plans to move 
forward on permitting activities on these lands?
    Mr. Cason. Not at this time.
    Senator Duckworth. Okay.
    Madam Chairwoman, I would like to submit for the record a 
couple of items.
    One is a law review article published by the University of 
Virginia earlier this year that determines the President lacks 
the authority to reverse national monument designations.
    The Chairman. That will be included as part of the record.
    Senator Duckworth. Thank you.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Duckworth. And then the second is an article that 
ran in the Washington Post detailing that a uranium mining firm 
urged the Trump Administration to reverse land protections at 
Bears Ears.
    The Chairman. We will include that as well.
    Senator Duckworth. Thank you.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Duckworth. I commend the State of Washington which 
appears to have found a pathway forward on how to manage the 
workload associated with infrastructure permitting 
requirements.
    Mr. Brown, the Trump Administration has proposed draconian 
budget cuts across the Administration and has sought early 
retirements from our civil servants.
    In your opinion, would this make federal permitting more or 
less burdensome for industry?
    Mr. Brown. I think the permitting process would be 
difficult with reduced funding for oversight of these projects.
    If the federal projects, our partners that we work with, 
don't have the oversight ability to ensure proper environmental 
regulations then that would fall to the states. And the states' 
authority, for example, 401 certification, we would need to 
condition those permits and those licenses in order to ensure 
that our water quality standards and other permit regulations 
are met. So as we lose expertise on the federal level with our 
federal partners, the states would need to make up for that. I 
do think that losing funding in the Federal Government level 
would impact the permitting process greatly on both the federal 
and the state side.
    Senator Duckworth. So do you think the states will be able 
to afford to come up with that additional cost shift from the 
federal onto the government? To the state governments, excuse 
me.
    Mr. Brown. No--there's pass-through funding for us to 
implement. Our delegated authority is often impacted, as well, 
so we have less resources. And we must prioritize our 
regulatory oversight as well.
    And so, with the water power licensing fees that we have, 
although it doesn't fully fund the program, it does, sort of, 
move those projects to the front of the line because they do 
have somebody in place with the expertise to be there for early 
engagement and to begin the permitting process.
    But funding at that level and working with industry to get 
those funding approved through state legislature is very 
difficult. We feel like we've been successful in working with 
our industry partners to maintain that fee.
    Senator Duckworth. Thank you.
    So having a fully resourced Federal Government is essential 
to guarantee that state governments can fulfill their role in 
the permitting process, essentially is what you're saying?
    Mr. Brown. Yes.
    Senator Duckworth. Thank you.
    Thank you, Mr. Brown.
    On a related note, Ms. Perruso, your company has worked on 
two major energy infrastructure projects, a wind farm and a 
transmission project, over the past decade. Can you please 
share your overall experience working with our federal 
employees?
    By the way, wind power has added 100,000 jobs in Illinois 
over the last 10 years, so I am a big fan.
    Ms. Perruso. That's exciting. Thank you.
    I don't think it's exaggerating to say over the last 10 
years that we have worked very closely with federal employees 
and we've participated in literally, thousands of conference 
calls and meetings. And the projects would not be where they 
are today if it wasn't for the many federal employees at every 
level, from the field offices, to the state offices, to DC, 
who've worked really hard on the environmental analysis.
    Now, I'm not going to tell you that all the relationships 
always went well or that there weren't bumps in the road, but 
we were very fortunate in the end, to have many federal 
employees who really took a real interest in the projects and 
were committed and are committed to seeing the projects 
through.
    That's why our recommendations today in my testimony really 
focus on improving the framework that the federal employees are 
working under. If they have consistent policies that they can 
carry out, coordinate and communicate, but also with the 
corresponding decision-making authority so it's not just 
coordination and communication without an ending and then 
accountability regarding schedule and budget. I think it's 
pretty universal that everybody performs better when there's a 
schedule and a budget.
    I can tell you the perfect example is I wouldn't have 
gotten my written testimony submitted Friday if there hadn't 
been a deadline.
    [Laughter.]
    Senator Duckworth. Thank you. Thank you.
    Oftentimes, I need deadlines too.
    Madam Chair, I'm out of time. You have been very generous. 
Thank you.
    The Chairman. Thank you. Thank you, Senator Duckworth.
    Senator Hoeven.
    Senator Hoeven. Thank you, Madam Chairman.
    Thanks for holding the hearing.
    Secretary Cason, I recently introduced legislation that 
reforms the BLM permitting process for permit to drills, APDs, 
for oil wells where the BLM owns no surface acres, but owns 
mineral acres under that area. We would like to be able to go 
ahead and permit if they own, without going through their BLM 
approval process, if they own less than 50 percent of the 
mineral acres, because we would go through the other approval 
processes and, in essence, a minority of the ownership with no 
surface acreage impact to BLM surface acres is holding up the 
majority owner on the minerals. So that is essentially how the 
legislation works.
    We actually moved a version of it through here, I think it 
was last year, and it didn't get passed across the Floor but we 
are continuing to work it. Again, it is just about trying to 
have a commonsense way to expedite APDs.
    So, I would like your reaction to that and whether or not 
you are willing to support that type of effort.
    Mr. Cason. We're always happy to have any flexibility to 
move our processes along more efficiently than they are right 
now. So we'd be happy to work with you on the legislation and 
offer comments or suggestions on how we can make things better.
    Senator Hoeven. Yes, again, it goes back to common sense. 
In other words, if you have no surface acre impact, if you are 
a minority holder in the minerals, if it frees up time and 
resources for you to go take care of surface acres where you 
have issues----
    Mr. Cason. Right.
    Senator Hoeven. ----it seems to me you get more done with 
less people and it works all the way around, both in terms of 
the APDs, but also your ability to manage your surface acres 
where you have them.
    Mr. Cason. Right, uh-huh.
    Senator Hoeven. And it also generates revenue because you 
get revenue from those producing wells.
    Mr. Cason. Right.
    We'd be happy to work with you on the legislation and 
anything that moves the process along, we would be happy for.
    Senator Hoeven. Yes, so there's a little salesmanship here 
so somebody who maybe isn't for fossil fuels understands that 
there are actually benefits on both sides of the equation in 
terms of good BLM land management.
    Mr. Cason. Well, we certainly have to set priorities all 
the time. There's not enough resources to go around and do 
everything that we would like to do.
    So any way that we can prioritize our resources by making 
the job easier to do or more straightforward or more efficient 
is something that we'd like to try to do.
    Senator Hoeven. Yes, and along that same line, our coal 
miners--and we do lignite coal mining, which is strip mining--
--
    Mr. Cason. Right.
    Senator Hoeven. ----for your information--are still having 
trouble getting permits. It is taking too long. What happens 
then is they end up going around federal lands, around BLM 
lands, okay? So you just miss out on the revenues and so forth 
and it makes it more costly for them.
    Mr. Cason. Right.
    Senator Hoeven. We really need a way to expedite that 
process.
    My sense is it would be useful for you or the right person 
to come out to North Dakota and visit with our miners and see 
what they do and see their reclamation. I mean, you can't tell, 
I mean, once they reclaim that land.
    Mr. Cason. Right.
    Senator Hoeven. So I would like your reaction to that.
    Mr. Cason. Well, one of the things that we encountered at 
the beginning of the Administration was the--I'll call it the 
war on coal and everything related to coal. And the effect of 
the government's policies in the last Administration was to 
shut down a lot of our coal resources and our permitting 
capabilities.
    So this President, Trump, has said the war on coal is over 
and we have had a Secretarial Order, an Executive Order, to 
basically get to that effect.
    We are currently implementing changes to our coal program 
so that we can lease more coal. We have had a very large coal 
sale so far this year. So we are trying to make that resource 
available across the board.
    We are, our Administration, is basically an all-of-the-
above kind of energy and we are trying to actively embrace all 
the forms of energy, including coal, including oil and gas, 
including solar and wind. And the thought process is we're not 
going to try to pick winners and losers, that we'll have the 
marketplace actually do that. So our job is to make the 
resources available and then the market can sort out which one 
is the most effective.
    Senator Hoeven. Good.
    Well, then I would like to work with you to follow up. I 
think coming out and seeing what we do is quite eye opening. I 
think people don't realize the quality of the work that 
Reclamation----
    Mr. Cason. Okay.
    Senator Hoeven. We are number one in the country in 
Reclamation, number one.
    Mr. Cason. Okay.
    Senator Hoeven. So it would be great to have you do that.
    Mr. Cason. Okay.
    Senator Hoeven. Madam Chair, I beg indulgence for one more 
question recognizing I am over my time here.
    But Director Pfleeger, in regard to permitting improvement 
for federal infrastructure, can you tell me what concrete steps 
the Administration is taking or will be taking to expedite and 
improve infrastructure siting processes?
    Ms. Pfleeger. So there's two tools available.
    There's FAST-41, the law, as well as the Executive Order 
13807. And the, kind of, fundamental principles that we're 
currently using. And this is a 16-member Permitting Council. 
It's early coordination and collaboration, so bring every 
agency that has a permitting role in the project together at 
the start of the project. Once a quarter they're required to 
update what's called a Coordinated Project Plan. So they're 
having those conversations at the beginning and then regularly 
throughout the process. And they can address difficult issues. 
That's number one.
    Number two is accountability. They're required to put a 
timeline on a public dashboard and that gives the project 
sponsors the certainty and the clarity they need as well as 
providing the public and any stakeholders with information on 
specific target dates for a permit.
    And then there's also my office, the Office of the 
Executive Director, where a project sponsor can come and, 
whether it's informal and we'll work with agencies on a 
specific project, or there's a formal dispute resolution 
process. All of those things are being used to streamline the 
process.
    Senator Hoeven. Okay.
    I would really encourage you to work with the states as 
much as you can, do a state-led approach to help you with that 
process. I think it would really be beneficial.
    Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hoeven.
    Mr. Cason, I would certainly encourage you to take Senator 
Hoeven up on his offer to visit North Dakota. I had an 
opportunity to go there several years ago and that was all that 
the people wanted to talk about was the situation with BLM and 
how on these areas you just had such an impediment to any level 
of development because things just took longer.
    You mentioned this is all about common sense in terms of 
how these APDs were issued, but it was really eye opening for 
me to see and understand how you can have a level of good, 
solid, economic activity. You mentioned the Reclamation efforts 
and all that goes with that. But then you have the federal 
lands, an entirely different scenario in terms of how the 
process proceeds. It was an important visit.
    Mr. Cason. I'd be happy to. It sounds like a great trip.
    The Chairman. Particularly, this time of year. Right, 
Senator Hoeven?
    [Laughter.]
    Senator Hoeven. The high in DC today will be 48. The high 
in Bismarck, North Dakota, today will be 50.
    The Chairman. There you go.
    Mr. Cason. Yeah, it sounds perfect.
    The Chairman. Make your reservations today.
    [Laughter.]
    Yes.
    Senator Hoeven. Exactly.
    [Laughter.]
    The Chairman. Let me ask one more question and this relates 
to NEPA.
    It has been mentioned a little bit, and some of you in your 
testimony here, but it seems that we have, kind of, moved away 
from a NEPA process that allows for this interaction between 
the permit applicants and the agencies to ask the questions, to 
provide some clarity and to have that understanding.
    What it seems we have moved to now is more of an arm's 
length transaction where you can't have the, ``hey, we've got a 
question over here. Well, let me help you clear that up over 
there.'' That adds to time delays. That adds to greater 
uncertainty. We hear that move, or that direction, to more of 
an arm's length transaction rather than the ability to work 
some of these things out as you are moving through the process.
    The other thing that I have heard and Senator Duckworth 
mentioned a little bit in her question to you, Ms. Perruso, 
about the federal employees that you work with, those that are 
part of the agencies.
    One of the things that I hear is that you have a level of 
turnover within the agencies that if you are in a multi-year 
process, as Senator Risch has outlined or as Mr. Russell has 
indicated, that Hecla has gone through where you have projects 
that are taking years and years and years and you go back to 
the same agency and now you have a different person and, 
basically, you are retelling your story all over again.
    So the question, and I will just throw it out there to you, 
Mr. Cason and Ms. Pfleeger, in terms of what you think we can 
do to get back to a more collaborative approach that can help 
answer some of the preliminary questions?
    And then to those on the applicant side, Ms. Perruso, Mr. 
Russell, how bad is this situation with staff turnover and what 
that then does to elongating this permit process?
    So let's start with you on the what can we be doing to 
reinstitute this collaborative approach?
    Mr. Cason. The long-term length of a lot of these projects 
do lend themselves to encounter staff turnover, that's for 
sure.
    One of the things that we're trying to do at Interior to 
combat that is we're going through a process right now of 
building a standardized NEPA compliance process and training so 
that all of our NEPA practitioners basically end up with the 
same grounding of what's required under NEPA and the CEQ rules 
so that if you get a new face in the job that at least they're 
operating from the same set of standards that we're trying to 
imply. One of the things that we have found so far in our NEPA 
streamlining process is that each of our agencies end up doing 
NEPA just a little bit different. And so, we're trying to get 
past that and standardize it.
    A second thing that we're trying to do is really examine 
the CEQ rules of the NEPA process and make sure that we're 
cutting out of the process any of the things that are 
extraneous and not required by the statute or the regulations. 
So that should help as well.
    And then we're trying to build a broader cadre of NEPA 
specialists, who if we have a vacancy we have somebody that's 
on the back bench that can come in and fill in on the project. 
It probably won't do a lot for the specifics of an individual 
project because each of those tend to be different, but it can 
help a lot if you insert a new person that has the same 
background and training that they can take over the project, 
learn the specifics about the project much more quickly and 
create less confusion and disruption of the process.
    The Chairman. Ms. Pfleeger, on the collaborative side, 
anything we can be doing more?
    Ms. Pfleeger. One thing I would say about the collaborative 
side, I've mentioned the coordinated project plans and how 
important they are. They require a plan and, again, this is at 
the start of a project and then with the quarterly update, a 
plan for public and tribal outreach. So that's built into the 
structure FAST-41.
    To piggyback on what Jim was saying about Interior. Our 
best practices report just released last week addresses the 
very issue you just described about staff turnover and the need 
for training. That's one of the FAST, that's one of the best 
practices FAST-41 requires, that we focus on training and 
making sure that that project knowledge can move from one 
person to the next when there is turnover because we understand 
how important that is and as projects take time we want to 
conserve and use the knowledge already built up.
    The Chairman. How about from the applicant side?
    Ms. Perruso.
    Ms. Perruso. We absolutely experienced a high turnover rate 
in the federal employees we were working with.
    For example, during the 10 years our two projects have been 
moving forward, all of the BLM state directors in all four 
states, all of the district managers, all of the BLM project 
managers and then many of the resource specialists, have turned 
over at least once and sometimes more than once. And there's no 
doubt that that turnover led to a loss of momentum as new staff 
came in and tried to get up to speed on where the project was, 
what had been done, what needed to be done. And sometimes there 
was disagreement with what had been done.
    This is where consistent policy and clear guidance would be 
very helpful and, as well as communication and coordination, as 
these staff turnovers take place.
    The Chairman. Very interesting.
    Mr. Russell. Ms. Chairman, certainly the project manager is 
key. I've seen projects that have worked very, very well with 
good project managers that understand NEPA, understand what 
project management is and drive the process.
    It has been a big issue for us at the Greens Creek 
situation. The Corps of Engineers went through two project 
managers and nothing happened for a year. At Rock Creek, 11 
months was lost when one biologist left the U.S. Fish and 
Wildlife Service. Nothing happened. So those resources are 
very, very important.
    The role of the applicant is also very, very important. I 
believe NEPA still allows for applicants to prepare 
environmental assessments. And early in my career applicants 
would provide, would prepare those. The agencies would review 
and approve them. We moved away from that primarily because of 
the fear of litigation, but that would be one way to get back 
to streamlining environmental assessments rather than EISs.
    Also at Greens Creek we experienced that because of this 
hand, you know, arm's length relationship that the Forest 
Service was developing independently, alternatives to our 
proposal that were not technically or economically feasible.
    So a lot of time and energy was spent developing those 
alternatives and when it finally came to preparing the final 
document it was only then that they reached out to us and said, 
can you do this? And the answer was no, it's not technically or 
economically feasible.
    So getting the applicant more involved earlier in the 
process can address the points that you've raised on point that 
you get a more streamlined and efficient process without 
reducing any rigor in the analysis. It's just much more 
efficient.
    The Chairman. Mr. Turpin, do you want to add anything to 
this?
    Mr. Turpin. Sure.
    I think the sentiments I've heard on, sort of, both sides 
of the table are things that we've experienced at the 
Commission.
    We have relatively, in terms of project managers, low 
turnover, but that being said, you lose that key person and it 
does have an impact for the project. That's why for the larger, 
more complicated projects, we'll have, you know, deputy project 
managers and others to try to ensure that institutional 
knowledge is there and that we don't have those, sort of, 
hiccups.
    I do think we've experienced much more turnover, or 
witnessed much more turnover in the other federal agencies, 
especially in the smaller regional offices where it may be 
that, you know, the sole piece of institutional--the sole 
vessel of institutional knowledge, once they leave that office, 
is starting over from scratch. And that has been a problem 
we've seen over and over.
    The Chairman. Yes, that is a problem. We see it.
    Senator King.
    Senator King. Madam Chair, that was a really good question, 
and we have identified in the Armed Services Committee, one of 
the problems with the federal procurement process is turnover 
and the loss of a project manager following through, and it's 
one of the reasons the procurement process in the Defense 
Department takes so long.
    But I think there's an additional point here, and that is 
it's often easy, politically, to talk about shrinking the 
government, and hiring freezes, and fewer people. That directly 
impacts the speed of your permitting process.
    I mean, we are talking about changing regulation, but if 
you don't have the people to do the analysis and to do the 
required steps that it takes, and I think we need to understand 
that, that you can't on the one hand talk about a more 
efficient permitting process and on the other hand talk about 
firing people and shrinking the size of government, whether 
it's the EPA or the Department of the Interior or the Forest 
Service, whatever. There's an inconsistency there, and I think 
that point needs to be made.
    The Chairman. Well, you have made it and I am reminded that 
oftentimes I will hear complaints from constituents or other 
folks that say, you need to reduce the size of that agency, 
until they want their permit approved. And then it's like, 
where are all the people in your agency?
    Senator King. Then they complain that nobody answers the 
phone.
    The Chairman. That's it--yes, yes.
    [Laughter.]
    We know the problem and you know it, you are living it.
    This has been very informative, very instructive this 
morning. This last exchange about the imperative to have the 
people in place, the knowledgeable folks in place, is a 
challenge for us. And I think we recognize that we can pass 
legislation whether it's FAST-41 or whatever it is. We can put 
in place processes that allow for streamlining and efficiencies 
but we still have to have the folks that actually make it all 
happen. So how we work to find that balance again is part of 
our challenge here.
    But I thank you each for what you have contributed to the 
conversation this morning. As we look to ways that we can move 
the economy, it is very clear it is not a Republican idea or a 
Democrat idea. We saw with the Obama Administration. They said 
we need to do something about the regulatory permitting 
process. President Trump comes into office. We need to do more 
about the regulatory permitting process. Our challenge is to do 
more about the regulatory permitting process and actually see 
that translate on the ground.
    As you point out, Senator King, none of us are wishing to 
shortcut environmental considerations that would put at risk 
our economy. We do expect to have stringent and good standards, 
but we also expect a level of certainty and predictability and 
one that doesn't stretch out a permitting process for, 
literally, decades where people have worked on a certain 
project for a generation. That is not the goal here.
    So we have work to do, but we appreciate what you all have 
contributed to the conversation.
    With that, we stand adjourned.
    [Whereupon, at 12:09 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
